          OFFICE OF INSPECTOR GENERAL 




                                   Catalyst for Improving the Environment


Evaluation Briefing Report


        Assessment of EPA’s Projected
        Pollutant Reductions Resulting from
        Enforcement Actions and Settlements

        Report No. 2007-B-00002

        July 24, 2007
Report Contributors:	               Rick Beusse
                                    Ira Brass
                                    Hilda Canes Garduño
                                    Bao Chuong
                                    Dan Engelberg
                                    James Hatfield
                                    Tim Roach
                                    Michael Wagg




Abbreviations

CAA           Clean Air Act
CCDS          Case Conclusion Data Sheet
CEMS          Continuous Emission Monitoring System
CWA           Clean Water Act
EPA           U.S. Environmental Protection Agency
FY            Fiscal Year
ICIS          Integrated Compliance Information System
lbs.          Pounds
OECA          Office of Enforcement and Compliance Assurance
OIG           Office of Inspector General




Cover photos:	 Images of water pollution (top) and air pollution (bottom)
               (photos courtesy Iowa Department of Natural Resources
               and U.S. EPA, respectively).
                       U.S. Environmental Protection Agency                                              2007-B-00002

                                                                                                          July 24, 2007

                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment

Why We Did This Review              Assessment of EPA’s Projected Pollutant Reductions 

We conducted this review at         Resulting from Enforcement Actions and Settlements 

the request of the Office of
Management and Budget. We            What We Learned
were asked to assess (1) the
accuracy and reliability of the     The accuracy and reliability of EPA’s projected pollutant reductions for Fiscal
U.S. Environmental Protection       Years 2003-2006 were dependent on the specific program in which the
Agency’s (EPA’s) Office of          enforcement action took place. For example, more reliable data were available to
Enforcement and Compliance          project reductions from oil spill and power plant cases than other Clean Water Act
Assurance (OECA) pollution          (CWA) and Clean Air Act (CAA) cases, respectively. EPA has improved its
reduction projections for           internal control process for ensuring more accurate pollutant reduction estimates
enforcement actions and             from concluded enforcement cases. The accuracy of estimated reductions from
settlements, and (2) whether the
                                    CWA enforcement actions has likely improved as a result of these internal control
reported projected pollution
reductions were achieved.           changes. However, we noted some inconsistencies in the calculation of projected
                                    CAA emission reductions. For example, three of the six power plant cases we
Background                          reviewed did not include estimates for particulate matter reductions, thereby
                                    underreporting reductions. Also, different methodologies were used to estimate
OECA’s enforcement actions          post-compliance emissions from power plant cases. Further, three of the six
can result in facilities agreeing   regions we surveyed did not independently review the basis for the projected
to install pollution controls or    reductions for some CAA cases as called for by OECA’s guidance.
take other measures to reduce
pollutant emissions or
discharges. In accordance with      EPA’s annual projected reductions were heavily influenced by a few large cases.
the Government Performance          Less than 1 percent of the CWA cases accounted for 52 percent of the projected
and Results Act, OECA               pollutant reductions from concluded CWA enforcement actions. Similarly, a few
annually reports on the amount      large power plant cases resulted in a marked increase in total estimated CAA-
of pollutants expected to be        related reductions for Fiscal Years 2004-2005. For example, two power plant
reduced, treated, or eliminated     cases accounted for over 600 million pounds in reductions, about 78 percent of
as a result of these actions.       the Fiscal Year 2004 total.
OECA only reports 1 year’s
worth of estimated pollutant        Facilities were on target to meet the projected reductions for the CAA cases we
reductions, though reductions       reviewed. However, it will take years to complete all corrective actions in these
may occur for years into the
future. The reductions are          cases. Consequently, we could not determine whether they had achieved their
reported in the fiscal year that    total projected reductions. Projected reductions have already been achieved for at
an enforcement case is              least one CWA case, and other CWA cases were making progress toward meeting
concluded, not necessarily the      their projected reductions. EPA’s 2006 Annual Report used terms such as
year in which the projected         “achieved,” “reduced,” and “actual” to describe emission reductions for that year
reductions will be fully            even though the reductions were often only projected amounts, since it can take
realized.                           years for reductions to occur. OECA agreed to use more precise wording in
                                    future reports.
For further information, contact
our Office of Congressional and
Public Liaison at (202) 566-2391.   We presented the results of our review to OECA on May 23, 2007. We clarified
To view the full report,
                                    parts of our presentation based on OECA’s feedback. OECA generally agreed
click on the following link:        with our findings and stated that it would address the issues disclosed. We make
www.epa.gov/oig/reports/2007/       no recommendations in this report.
20070724-2007-B-00002.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                           July 24, 2007

MEMORANDUM

SUBJECT:               Assessment of EPA’s Projected Pollutant Reductions
                       Resulting from Enforcement Actions and Settlements
                       Report No. 2007-B-00002


FROM:                  Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:                    Granta Y. Nakayama
                       Assistant Administrator for Enforcement and Compliance Assurance


This is our briefing report on the accuracy of pollution reduction projections resulting from
Office of Enforcement and Compliance Assurance enforcement actions and settlements,
conducted by the Office of Inspector General (OIG) of the U.S. Environmental Protection
Agency (EPA). This briefing represents the opinion of the OIG and does not necessarily
represent the final EPA position. Final determinations on matters in this briefing will be made by
EPA managers in accordance with established resolution procedures.

The estimated cost of this project – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $397,274.

Action Required

Since this briefing report contains no recommendations, you are not required to respond to it.
We have no objections to the further release of this briefing report to the public. This report will
be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this briefing report, please contact Rick Beusse, 

Director for Program Evaluation, Air Issues, at (919) 541-5747 or beusse.rick@epa.gov; or 

Dan Engelberg, Director for Program Evaluation, Water Issues, at (202) 566-0830 or 

engelberg.dan@epa.gov. 

cc: 	   Office of the Administrator
        Assistant Administrator for Air and Radiation
        Assistant Administrator for Water
        Agency Followup Official (CFO)
        Agency Followup Coordinator
        Office of General Counsel
        Associate Administrator for Congressional and Intergovernmental Relations
        Associate Administrator for Public Affairs
        Audit Liaison, Office of Enforcement and Compliance Assurance
        Acting Inspector General
  OIG Assessment of EPA’s
Projected Pollutant Reductions

              Briefing for OECA
              Originally Presented on
              May 23, 2007
    Objectives


    z	 How  accurate and reliable are OECA’s
      pollutant reduction projections for
      enforcement actions and settlements?

    z	 Were the projected pollutant reductions
      reported for selected enforcement actions
      and settlements actually achieved?


2
    What We Learned


     The reliability of estimated pollutant
     reductions is dependent on the specific
     program in which the enforcement action
     takes place.
     •	   Projected pollutant reductions from Oil Pollution Act cases
          tend to be more reliable than those associated with other
          types of CWA enforcement actions.
     •	   Projected pollutant reductions for power plant cases are
          based on more reliable methods [i.e., Continuous Emission
          Monitoring System (CEMS)] than projections for other CAA
3         cases.
    What We Learned


     There have been improvements in the
     internal control process EPA uses to generate
     pollutant reduction estimates.
     •	   OECA issued new guidance in August 2004.
     •	   Standard calculation methodologies have been expanded to
          cover more types of enforcement actions.




4
    What We Learned


     Projected pollutant reductions have been or
     are being achieved in most of the cases
     reviewed. However, because of the length of
     time needed for required corrective actions, it
     is not possible to make a determination in all
     cases.


5
    What We Learned


     The settlement of a few large power plant
     cases resulted in a marked increase in total
     estimated reductions for Fiscal Years (FYs)
     2004 – 2005. For example:
     •	   2 power plant cases in FY 2004 account for over 600 million
          lbs. in reductions – approximately 60% of the FY 2004 total.
     •	   2 other power plant cases in FY 2005 account for over
          535 million lbs. in reductions – almost 50% of the FY 2005
          total.

6
    What We Learned


    z	 EPA’s   FY 2006 Performance and
       Accountability Report uses terms such as
       “achieved,” “reduced,” and “actual” in
       describing pollutant reductions (pp. 9, 118).
    z	 These descriptions should be revised to
       reflect that results are based on estimated
       projections of future pollutant reductions and
       are not actual reductions.

7
    What We Learned



    Excerpt from
    EPA’s FY 2006
    Performance and
    Accountability
    Report




8
    Background

        Estimated Pollutant Reductions by Environmental Media
                            FYs 2003 − 2006


                            2%


                   34%
                                                                Air
                                                                Water
                                                                Other
                                      64%




9
     Background


                                                     Ov erall Re porte d Pollutant Reductions -
                                                                  FYs 2003 − 2006

                                              1200
       Pollutant Reduction




                                              1000
                             (million lbs.)




                                               800

                                               600

                                               400

                                               200

                                                 0
                                                        2003          2004             2005       2006
                                                                             Fiscal Year




10
     Background


     z	 Regions record enforcement case
       information - including estimated pollutant
       reductions - on the Case Conclusion Data
       Sheet (CCDS).

     z	 CCDS   information is entered into the
       Integrated Compliance Information System
       (ICIS).
11
     Background


     z   OECA contractor to develop a methodology 

         for verifying projected pollutant reductions.


     z	 OECA    contractor to pilot test methodology on
         petroleum refinery cases.

     z	 Completion   date is September 30, 2007.


12
Clean Water Act Enforcement




             Summary Information

     Projected CWA Pollutant

     Reductions FYs 2003 – 2006



                                            22% - OIG Sample




                             78%




          Total CWA Projected Pollutant Reductions – 1.2 billion lbs.
          Total OIG Sample – 271 million lbs.


14
     CWA Review Methodology


     •	   Selected eight cases for review.
     •	   Evaluated processes used to calculate
          pollutant reductions against existing Agency
          guidance.
     •	   Determined how Agency tracks compliance
          with the enforcement order.
     •	   Determined, if possible, whether projected
          reductions were occurring.

15
     CWA Cases Reviewed


                   Case                 EPA     Date Final Order   CWA Section
                                       Region       Entered
       Cooper Land Development, Inc.     7         2/17/2006         301/402
         Midwest Feeding Company         7         11/7/2003         301/402
            Joe Ivie Hog Farm            6         3/25/2003         301/402
             Explorer Pipeline           6         10/8/2004         311 (b)
            Galveston, City of           6        12/10/1996           301
       H & W Petroleum Company, Inc.     6          6/2/2006          311 (j)
           South Star Oil & Gas          6         5/20/2005           301
                 Wal-Mart               HQ         9/22/2005         301/402




            Total Projected Reductions = 270,874,329 lbs.

16
     Most Projected Pollutant Reductions from
     CWA Enforcement Actions are Modest
     (1,000 – 100,000 pounds)


                                    Frequency of Pollutant Reductions
                                  (FYs 2003 − 2006) -C WA      = 2,632

                          1,600                                                    n
        Number of Cases




                          1,200
                           800
                           400
                             0
                                     0 -1, 00




                                                          100, 00




                                                                                1,000, 00




                                                                                                                           10,000,000
                                                                                                          10,000, 00
                                                                                            1,000,000 -
                                                                    100,000 -
                                                1,000 -




                                                                                                                       >
                                                Pollutants Reduced (lbs.)




17
     Projected Pollutant Reductions are
     Concentrated in a Small Number of
     CWA Enforcement Actions


       Just 23 of 2,632 cases accounted for
       52 percent of the projected pollutant
       reductions from concluded CWA
       enforcement actions.




18
     Conclusions – CWA


      The accuracy and reliability of pollutant
      reduction estimates vary based on the
      information available to enforcement staff.
      •	   Estimates for oil spill removals, for example, are more
           accurate because better monitoring data are available.

      •	   Enforcement actions requiring volumetric estimates 

           (e.g., holding ponds) may be less accurate.



19
     Conclusions – CWA 


      The accuracy and reliability of pollutant
      reduction estimates have likely improved
      as a result of changes to EPA’s quality
      assurance process.
       •	   Updated OECA guidance (2004) encouraged greater
            standardization of pollutant reduction calculations.

       •	   Reported pollutant reduction estimates are receiving
            increasing levels of scrutiny.

20
     Conclusions - CWA


     z	 Where  corrective action has been completed,
      field inspections have been used to verify
      that pollutant reductions have been
      achieved.
     z	 Wherecorrective action has not yet been
      completed, site inspections and progress
      reports are used to gauge interim progress.

21
Clean Air Act Enforcement




            Summary Information

     Background


     z	   Projected emission reductions are reported in
          the fiscal year in which the case is concluded
          (e.g., date an administrative order is issued),
          not necessarily in the year(s) the benefit is
          expected to occur.
     z	   Projected pollutant reductions are the difference
          between annual emissions prior to a settlement
          agreement and annual emissions once
          corrective actions are taken.
23
     Background


     z	   Between FYs 2004 – 2006, emission reductions
          from power plants decreased from 93% to 30%.
          •	   During same period, emission reductions from petroleum
               refineries increased from 4% to 50%.

     z	   Methods for estimating projected emission
          reductions less reliable for non-utility industry
          sectors (CEMS data generally not available).
          •	   For example, projected reductions for one case were based
               on several emission estimation methods of varying reliability.

24
     Projected CAA Emission Reductions
     FYs 2003 – 2006


               Food     Other

             Production 7%

                8%




         Refineries                            43%
           18%
                                                            OIG Sample
                                                               57%
                                 Utilities
                                  67%




                 Total CAA Reductions = 2.3 billion lbs.

                   Total OIG Sample = 1.3 billion lbs.

25
     Projected CAA Emission Reductions
     FY 2003

       Chemicals
       Production
          4%        Other
                     7%
          Mobile

         Sources

           10%
                Utilities
                                41%               40%


                                                                 OIG Sample
                                                                    60%

            Food

          Production

             38%





                    Total CAA Reductions = 320.4 million lbs.

                      Total OIG Sample = 193.6 million lbs.

26
     Projected CAA Emission Reductions
     FY 2004
                   Other

                    3%

          Refineries

             4%

                                         22%




                                                      OIG Sample
                            Utilities                    78%
                             93%




          Total CAA Reductions = 781.9 million lbs.
            Total OIG Sample = 607.9 million lbs.
27
     Projected CAA Emission Reductions
     FY 2005

                       Other
          Refineries    3%
                                              17%
            13%




                               Utilities                  OIG Sample
                                84%                          83%




             Total CAA Reductions = 642.2 million lbs.

               Total OIG Sample = 536.2 million lbs.

28
     Projected CAA Emission Reductions
     FY 2006

                                Other

                                10%

            Food production

                 10%




                                         Refineries
                                           50%



                    Utilities
                     30%




           Total CAA Reductions = 583.2 million lbs.
                   Total OIG Sample = NA
29
     CAA Review Methodology


     z	 Selectedtwo largest CAA cases from each
       of FYs 2003, 2004, and 2005.

     z	 Also
           selected one large case from FY 2002.
       Case identified through OIG query of OECA
       database.



30
     CAA Review Methodology


     z	 For   each sample case:

        •	   Determined how the estimated reduction was calculated.
        •	   Compared process followed to CCDS guidance.
        •	   Determined how compliance with the enforcement.
             agreement is tracked.
        •	   Determined whether projected reductions were occurring.




31
     CAA Cases Reviewed

                  Case              Date Final Order    Compliance    Reduction (lbs.)
                                        Entered           Date
     PSEG Fossil Inc.                         7/26/02          2010       108,000,000

     Alcoa Inc.                               7/28/03          2011       130,000,000

     Archer Daniels Midland Co.               8/21/03          2012         63,600,000

     Virginia Electric and Power              10/3/03          2013       472,596,000
     Co.
     South Carolina Public                    6/24/04          2012       135,300,000
     Service Authority
     Illinois Power Co.                       5/27/05          2013       110,850,000

     Ohio Edison Co.                          7/11/05          2012       425,314,000

32                        Total Projected Reductions                    1,445,660,000
     Quality Assurance/Quality Control
     for the CCDS Process

      Basic steps in CCDS Quality Assurance/
      Quality Control process:

      •	   Complete the CCDS form.
      •	   Conduct independent review of data on the form.
      •	   Reconcile inconsistencies and incomplete entries as needed.
      •	   Enter CCDS data into ICIS.
      •	   Certify that the data is complete and accurate at mid-year and
           end-of-year.

33
     Compliance with CCDS Quality
     Assurance/Quality Control Steps

     Case        Complete Independent Reconcile Enter into   Certify
                 CCDS     Data Review           ICIS
     PSEG          Yes         No         Yes       Yes        Yes

     Alcoa          No         No         No        Yes        Yes

     ADM           Yes         Yes        Yes       Yes        Yes

     VEPCO         Yes         Yes        Yes       Yes        Yes

     SCPSA         Yes         Yes        Yes       Yes        Yes

     IL Power      Yes         No         Yes       Yes        Yes

     OH Edison     Yes         No         Yes       Yes        Yes
34
     Emission Estimation Methods –

     Power Plants Cases

                 Sulfur Dioxide (SO2)      Nitrogen Oxides (NOX)     Particulate Matter (PM)
     Case        Pre-         Post-        Pre-         Post-        Pre-            Post-
                 Compliance   Compliance   Compliance   Compliance   Compliance      Compliance
                 Baseline     Reported     Baseline     Reported     Baseline        Reported
                              Emissions                 Emissions                    Emissions
     PSEG        CEMS         Removal      CEMS         Emission     Not Projected   Not
                              Efficiency                Rate                         Projected
     Alcoa       EPA          Removal      EPA          Removal      EPA             Removal
                 Inventory    Efficiency   Inventory    Efficiency   Inventory       Efficiency
     VEPCO       CEMS         Removal      CEMS         Annual       Not Projected   Not
                              Efficiency                Cap                          Projected
     SCPSA       CEMS         Removal      CEMS         Emission     Stack Test      Manufacturer
                              Efficiency                Rate                         Design Data
     IL Power    CEMS         Emission     CEMS         Emission     Not             Not
                              Rate                      Rate         Documented      documented
     OH Edison   CEMS         Annual Cap   CEMS         Annual       Not Projected   Not
35                                                      Cap                          Projected
     Emission Estimation Methods – Archer 

     Daniels Midland Food Production Case


     Reductions Projected for:
     Sulfur Dioxide (SO2), Nitrogen Oxides (NOX), Particulate Matter (PM),
     Volatile Organic Compounds (VOCs), and Carbon Monoxide (CO)
     Pre-Compliance Baseline              Post-Compliance Reported
                                          Emissions
     Various methods including:           Removal efficiencies
     • Stack tests
     • CEMS
     • Material balance
     • Emission factors
     • Screening data




36
     Methods Used to Track Compliance

     with Interim Emission Requirements


     Case       Interim     CEMS   Stack   On-site      Company
                Reduction          Test    Inspection   Reports
                Met?
     PSEG       Yes         Yes    Yes     Yes          Yes

     Alcoa      Yes         N/A    Yes     Yes          Yes

     ADM        Yes         Yes    Yes     Yes          Yes

     VEPCO      Yes         Yes    Yes     Yes          Yes

     SCPSA      Yes         Yes    Yes     Yes          Yes

     IL Power   Yes         Yes    Yes     Yes          Yes

     OH         Yes         Yes    Yes     Yes          Yes
37   Edison
     Conclusions – CAA 


     z	 For time period reviewed the majority of
        projected reductions came from power plant
        cases.
     z	 FYs 2004 – 2005 spike in projected reductions
        came from a few large power plant cases.
     z	 Projected reductions for power plants are based
        on more reliable data – CEMS.
     z	 Cases reviewed are on schedule to meet
        projected emissions reductions.

38
     Conclusions – CAA 


     z	 Inconsistenciesin how projected reductions
       were calculated:
       •	   Not all regions included estimates for particulate matter
            reductions from power plant cases.

       •	   Final compliance emissions based on different methods.
             o	   Post-compliance annual cap.
             o	   Post-compliance emission rate used to estimate annual
                  emissions (assumes no change in production).


39
